No. 20-62
IN THE

Supreme Court of the United States

d

PARENTS

FOR

PRIVACY, et al.,
Petitioners,

—v.—

WILLIAM P. BARR , ATTORNEY GENERAL , et al.,
Respondents,

—and—
BASIC RIGHTS OREGON ,

Respondent-Intervenors.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION OF RESPONDENT-INTERVENORS
Erin B. Bernstein
Darin M. Sands
BRADLEY BERNSTEIN
SANDS LLP
PO Box 4120
PMB 62056
Portland, OR 97208
Peter D. Hawkes
LANE POWELL PC
601 SW Second Avenue,
Suite 2100
Portland, OR 97204

James D. Esseks
Counsel of Record
Gabriel Arkles
Rose A. Saxe
Louise Melling
Malita Picasso
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2627
jesseks@aclu.org

Attorneys for Respondent-Intervenors Basic Rights Oregon
(Counsel continued on inside cover)

Kelly Simon
ACLU FOUNDATION OF OREGON
P.O. Box 40585
Portland, OR 97240

David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Attorneys for Respondent-Intervenors Basic Rights Oregon

QUESTIONS PRESENTED
Whether parents have a substantive due
process right of parental autonomy to veto a school
district’s decision to allow a transgender student to
use the restrooms and locker room associated with his
gender identity while offering alternatives for
students who seek more privacy.
Whether students have a substantive due
process privacy right to veto a school district’s decision
to allow a transgender student to use the restrooms
and locker room associated with his gender identity
while offering alternatives for students who seek more
privacy.
Whether students have a free exercise right to
veto a school district’s decision to allow a transgender
student to use the restrooms and locker room
associated with his gender identity while offering
alternatives for students who seek more privacy.
Whether a school district’s policy allowing a
transgender student to use the restrooms and locker
room associated with his gender identity, while
offering alternatives for students who seek more
privacy, constitutes “harassment” because of sex in
violation of Title IX.
Whether the Court should grant certiorari
where Petitioners’ claims are not justiciable, as no
Petitioner’s child could have used a restroom or locker
room with a transgender student, the only
transgender student at the high school graduated two
years ago, and the plan that prompted the complaint
is no longer operative.

i

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE .................................... 3
REASONS FOR DENYING THE PETITION ......... 12
I.

THIS CASE PRESENTS AN
INAPPROPRIATE VEHICLE,
BOTH BECAUSE IT IS AT MOST AN
ABSTRACT DISPUTE, AND BECAUSE
THE FACTS ALLEGED IN THE
COMPLAINT CONTRADICT THOSE
IN THE PETITION ........................................ 12
A.

This Case Presents an Abstract
Disagreement, Not a Concrete Case
or Controversy. ....................................... 12

B.

The Facts Alleged in the Complaint
Contradict those Asserted in the
Petition ................................................... 17

II.

PETITIONERS HAVE IDENTIFIED
NO CIRCUIT SPLIT. ..................................... 20

III.

THE COURT OF APPEALS WAS
CORRECT. ..................................................... 22

CONCLUSION.......................................................... 30

ii

TABLE OF AUTHORITIES
CASES
Adams ex rel. Kasper v. Sch. Bd. of St. Johns Cty.,
968 F.3d 1286 (11th Cir. 2020) ......................... 3, 29
Already, LLC v. Nike, Inc., 568 U.S. 85 (2013) ........ 15
Bostock v. Clayton Cty., Georgia,
140 S. Ct. 1731 (2020) ........................................... 28
Brannum v. Overton Cty. Sch. Bd.,
516 F.3d 489 (6th Cir. 2008) ................................. 22
Burlington N. & Santa Fe Ry. Co. v. White,
548 U.S. 53(2006) .................................................. 28
Canedy v. Boardman,
16 F.3d 183 (7th Cir. 1994) ................................... 22
Cruzan v. Spec. Sch. Dist. No. 1,
294 F.3d 981 (8th Cir. 2002) ....................... 2, 20, 21
Davis ex rel. LaShonda D. v. Monroe Cty. Bd. of
Educ., 526 U.S. 629 (1999) .................................... 27
DeJohn v. Temple University,
537 F.3d 301 (3d Cir. 2008) ................................... 21
Doe v. Boyertown Area Sch. Dist.,
897 F.3d 518 (3d Cir. 2018) ..................... 1, 2, 20, 21
Doe v. Luzerne Cty.,
660 F.3d 169 (3d Cir. 2011) ............................. 22, 25
Emp’t Div., Dep’t of Human Res. of Oregon v. Smith,
494 U.S. 872 (1990)................................................ 26
Grimm v. Gloucester Cty. Sch. Bd.,
972 F.3d 586 (4th Cir. 2020) ............................. 3, 29
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992).......................................... 12, 13
iii

Meyer v. Nebraska, 262 U.S. 390 (1923) .................. 23
Murphy v. Hunt, 455 U.S. 478 (1982) ...................... 15
Pierce v. Soc’y of Sisters, 268 U.S. 510 (1925) .......... 23
Poe v. Leonard, 282 F.3d 123 (2d Cir. 2002) ...... 22, 25
Prince v. Massachusetts, 321 U.S. 158 (1944).......... 23
Renne v. Geary, 501 U.S. 312 (1991) ........................ 12
Sepulveda v. Ramirez,
967 F.2d 1413 (9th Cir. 1992) ............................... 25
Texas v. U.S., 523 U.S. 296 (1998) ........................... 15
Thomas v. Union Carbide Agric. Prod. Co.,
473 U.S. 568 (1985)................................................ 15
Tinker v. Des Moines Indep. Cmty. Sch. Dist.,
393 U.S. 503 (1969)................................................ 24
Washington v. Glucksberg, 521 U.S. 702 (1997) ...... 25
West Virginia State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943)................................................ 24
Whitaker ex rel. Whitaker v. Kenosha Unified Sch.
Dist. No. 1 Bd. of Educ., 858 F.3d 1034 (7th Cir.
2017) ................................................................... 3, 29

iv

INTRODUCTION
In this case, parents assert that a school district
violated their rights when it allowed a transgender
boy to use school facilities on the same terms as other
boys, while offering alternatives to any student
seeking more privacy. The facts and legal arguments
largely mirror those made unsuccessfully in Doe v.
Boyertown Area Sch. Dist., 897 F.3d 518 (3d Cir.
2018), cert. denied 139 S. Ct. 2636 (2019), in which this
Court denied review last year. As in Boyertown, the
district court and all three judges on the court of
appeals agreed that Petitioners presented no viable
claim. Not only is there no split in the circuits on the
issues presented, but not a single appellate judge has
seen merit in any of these claims.
On that basis alone, the Court should deny
certiorari. But this is an even worse case for Supreme
Court review than Boyertown for two reasons.
First, at this stage, the dispute is entirely
abstract, and is not even justiciable. The record
reflects that only a single transgender student ever
used facilities consistent with his gender identity at
Dallas High School (identified here only as Student
A)—and he graduated in 2018. Plaintiffs challenge an
individualized plan drawn up specifically for Student
A, which has no continued application since his
graduation. There is therefore no basis for prospective
relief. And as to retrospective relief, no student who
could have used a restroom or locker room with
Student A while he was at Dallas High School has ever
been a party to this case. Counsel for Petitioners has
admitted that no Plaintiff ever used a restroom or
locker room at the same time that a transgender
student did. Indeed, at this stage no students remain
1

in this case at all—only parents and parents’ rights
groups petition the Court. Nothing in the record
establishes that any of those Petitioners or their
members have children who could have used a
restroom or locker room with Student A. The abstract
character of the dispute at this point, two years after
Student A graduated, means the case is not
justiciable, and also makes the case an especially poor
vehicle for resolving the questions presented.
Second, key facts central to the Petition are
contradicted by Petitioners’ own Complaint.
Petitioners state in the Petition that their rights were
violated because non-transgender students had to
change clothes and “engage in intimate bodily
functions” in the presence of a transgender student.
Pet. i. But according to the Complaint, no student
actually had to disrobe in the view of any other
student. In fact, as the court of appeals acknowledged,
the school district offered “alternative options and
privacy protections to those who do not want to share
facilities.” Pet. App. 34a. Students could choose to
change for gym or use the restroom in available stalls,
or in separate single-occupancy facilities. No
compelled exposure of anyone’s body to anyone—
transgender or otherwise—is alleged to have ever
occurred.
In addition, Petitioners have identified no split
among the circuits. In the only two similar cases that
have reached a court of appeals, those courts have
reached the same unanimous conclusion: nothing in
the Constitution or federal laws against sex
discrimination
bars
schools
from
allowing
transgender people to use restrooms and locker rooms
consistent with their gender identity. See Boyertown,
897 F.3d at 527–31; Cruzan v. Spec. Sch. Dist. No. 1,
2

294 F.3d 981, 983–84 (8th Cir. 2002) (per curiam). No
court at any level has held that the Constitution or
federal law prohibits schools from choosing to treat
transgender students equally, as Dallas High School
did here.
Three courts of appeals have addressed a
distinct question: whether Title IX or the Equal
Protection Clause requires schools to allow
transgender students equal access to single-sex
facilities consistent with their gender identity. All
three have held that schools are legally required to do
so, because anything else would deprive transgender
students of equal access to education because of their
sex. See Grimm v. Gloucester Cty. Sch. Bd., 972 F.3d
586, 606–16, 618–19 (4th Cir. 2020); Adams ex rel.
Kasper v. Sch. Bd. of St. Johns Cty., 968 F.3d 1286,
1304, 1310–11 (11th Cir. 2020); Whitaker ex rel.
Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of
Educ., 858 F.3d 1034, 1050, 1054 (7th Cir. 2017).
But that question is not presented by this case,
which asks instead whether Title IX or the
Constitution prohibits a school from choosing to
permit transgender students to use facilities
associated with their gender identity, on the same
terms that apply to all other students. There is no
support for Petitioners’ position, much less any
conflict requiring this Court’s resolution. The Court
should deny certiorari.
STATEMENT OF THE CASE
The courts below resolved this case on a motion
to dismiss, and therefore the facts set forth in this
statement are taken from the Plaintiffs’ Complaint
unless otherwise indicated. In September 2015,
Student A, who attended Dallas High School in rural
3

Oregon, sought permission to use the boys’ locker
room, consistent with his gender identity. Pet. App.
205a. Student A is a transgender boy; he was assigned
female at birth and identifies as male. Id. He was a
student at Dallas High School from 2015 to 2018,
when he graduated early after skipping a grade. The
record indicates no other transgender students at
Dallas High School using facilities consistent with
their gender identity then or since.
The principal of Dallas High School applied the
school district’s existing non-discrimination policy and
approved Student A’s request to use the school’s locker
room designated for boys. Id. at 259a. Student A also
received permission to use the schools’ restrooms
designated for boys. Id. at 261a. The decision was
consistent with guidance from Oregon’s Department
of Education. Id. at 186a–87a. The school district
memorialized its decision about Student A in an
individualized Student Safety Plan (“Student A’s
Safety Plan”), which also listed safe adults Student A
could consult, indicated that Student A’s gym teacher
should be the first one in and last one out of the locker
room during his gym class, assigned a locker to
Student A within sight of the coach’s office, and
reminded staff of anti-harassment policies. Id. at
259a–62a. The school district informed students in
Student A’s gym class that he would start using the
boys’ locker room. Id. at 206a.
Students at Dallas High School were required
to take gym class, and were required to change before
and after gym. Id. at 213a. The main locker rooms had
both a communal area in which to change, and private
shower stalls and toilet stalls where students could
change if they preferred a more private space. Id. at
212a. The school also made other single-occupancy
4

facilities available to any student desiring to use
them. Id. at 12a. In addition to the private changing
areas in the locker room, these facilities included a
staff lounge, a restroom in the nurse’s office, and other
facilities available through the main office. Id. at
206a, 209a, 246a.
When some parents and students complained to
the principal about Student A’s Safety Plan, the
principal reaffirmed the district’s non-discrimination
policy, and explained that any students concerned
about their privacy could use single-occupancy
facilities. Id. at 209a, 246a. Petitioners alleged that
these alternative facilities were less convenient than
the public multi-user facilities, but they did not allege
that they were ineffective in addressing concerns
about privacy and modesty. The school district was
also investing substantial resources in renovations to
increase the private restroom and locker room options
available to all students. Id. at 206a.
Petitioners Kris and Jon Golly and their
children Lindsay Golly and A.G. (the Golly family) had
a religious basis for their belief that Lindsay and A.G.
should not change clothes or use a restroom in the
presence of anyone they perceived to be of a different
sex, including transgender people who were assigned
a different sex at birth than they were. Id. at 217a.
School officials were not alleged to have any
knowledge of these religious beliefs, to have required
anyone in the Golly family to act in violation of these
beliefs, to have made any statements related to
religion, to have treated any conduct differently
depending on whether it was religiously motivated, or
to have taken any actions for the purpose of favoring
or disfavoring religion generally or any specific
5

religious belief. Moreover, Lindsay and A.G. were not
even in high school when the Complaint was filed.
Student A used the boys’ public restrooms and
locker room throughout his time at Dallas High
School. Id. at 206a. Student A was not alleged to have
done anything inappropriate in the locker room or
restrooms; he simply used them in the same way other
students did. Id. at 207a.
In November 2017, more than two years after
Student A received permission to use the boys’
restrooms and locker room, two organizations
(Parents for Privacy and Parents Rights in Education)
and several individuals (T.F., Melissa Gregory, Nicole
Lillie, Lindsay Golly, A.G., Jon Golly, and Kris Golly)
brought this action. Id. at 180a. None of the Plaintiffs
were boys who attended Dallas High School at the
same time as Student A. Student A was a senior at the
time the Complaint was filed, and graduated in June
2018. Id. at 205a.
Plaintiffs asserted that the school’s choice to
permit Student A to use restrooms and locker rooms
that matched his gender identity infringed on their
rights. In a wide-ranging complaint, they alleged that
the school district violated their constitutional rights
to parental autonomy, privacy, and free exercise and
inflicted sexual harassment on them in violation of
Title IX. Id. at 221a–54a. They also named as
defendants the U.S. Attorney General and Secretary
of Education, claiming that they had violated the
Administrative Procedures Act, the Religious
Freedom Restoration Act, and the Constitution
(substantive due process and free exercise). Id. at
187a–89a. And they brought pendent state law claims
against the school district and the governor of Oregon.
6

Id. at 183a–87a. The Complaint did not allege that the
U.S. Attorney General, the Secretary of Education, or
the governor of Oregon was even aware of Student A’s
Safety Plan, the object of their challenge.
In April 2018, the district court granted
Respondent Basic Rights Oregon’s motion to intervene
as a defendant. Id. at 82a.
Respondents moved to dismiss. Petitioners
consented to the dismissal of many of their claims,
including those against the governor of Oregon, all the
claims of Lindsay Golly and Nicole Lillie, a parental
autonomy claim regarding a student survey used at a
middle school that asked about students’ sexual
orientation and gender identity, and the damages
claims of the only two individual students who
remained in the action, A.G. and T.F. Id. at 82a, 84a–
85a. At oral argument on the motions to dismiss,
counsel for Plaintiffs clarified that no Plaintiff had
ever encountered any transgender student in a
restroom or locker room.1
A few weeks after oral argument, Student A
graduated, and Student A’s Safety Plan ceased to have
any effect.

1

THE COURT: Have any of the Gollys actually encountered
the situation that you're most concerned about, and that is a
transgender student in either a bathroom or a shower or
anything like that?
MR. GREY: Not to this point, Your Honor.
THE COURT: Have any of the plaintiffs encountered that?
MR. GREY: Not to my knowledge.
Mot. Hr’g Tr. 21:20–22:2.

7

The district court dismissed all of Plaintiffs’
claims with prejudice. Id. at 172a. Rejecting the
students’ substantive due process privacy claim, the
court reasoned that high school students do not “have
a constitutional right not to share restrooms or locker
rooms with transgender students whose sex assigned
at birth is different than theirs.” Id. at 116a. It
concluded that parents do not have a substantive due
process right to veto a school district’s choice to treat
transgender students in a nondiscriminatory fashion.
Id. at 164a–65a.
It dismissed the free exercise claims,
concluding that Student A’s Safety Plan was “neutral
and generally applicable with respect to religion” and
that “[i]n any event, Plaintiffs do not have standing to
bring this claim” because the Gollys—the only
Plaintiffs alleged to have relevant religious beliefs—
did not have children at the high school. Id. at 169a.
The court dismissed the Title IX claims because the
Complaint did not allege facts establishing
harassment that effectively denied students equal
access to educational resources and opportunities. Id.
at 149a. The district court also dismissed the state law
claims and all claims against the federal defendants.
Id. at 155a–59a, 171a–72a.
The court of appeals affirmed. It found that in
the absence of any allegations of “privacy intrusion by
government officers or the public disclosure of photos
or video footage,” the district court was correct to
dismiss the substantive due process privacy claim. Id.
at 32a.
With regard to parental autonomy, the court of
appeals looked to history, tradition, and precedent,
and found that parents do not have a substantive due
8

process right “to determine the bathroom policies of
the public schools to which [they] may send their
children.” Id. at 9a, 44a–57a. Because Student A’s
Safety Plan was rationally related “to the legitimate
purpose of protecting student safety and well-being,
and eliminating discrimination on the basis of sex and
transgender status,” the court also affirmed the
dismissal of the free exercise claim. Id. at 72a–75a. It
further held that mere presence in a locker room or
restroom “does not constitute actionable sexual
harassment under Title IX just because a person is
transgender.” Id. at 9a. The court of appeals affirmed
the district court’s dismissal with prejudice because
“Plaintiffs have not shown, either in their briefing or
at oral argument, how they could amend their
complaint to remedy the many legal deficiencies in
their claims.” Id. at 75a.
Parents and parents’ rights groups seek this
Court’s review on the substantive due process, free
exercise, and Title VII questions. No individual
current or former Dallas High School student seeks
review. Pet. ii. And there are no allegations that any
of the parents have children who were boys and
attended high school at the same time as Student A.
Nor are there any allegations that either of the
organizations have members who are boys and who
attended high school when Student A’s Safety Plan
was in effect, or who are parents of such boys. There
is no allegation that there are any transgender
students using facilities associated with their gender
identity at Dallas High School at this time.
The only Petitioners before this Court are as
follows:

9

x

Kris and Jon Golly (the Gollys) are parents in
the school district. They have two children,
neither of whom could ever have been in a
restroom or locker room at the same time as
Student A. Pet. App. 182a. Lindsay Golly, the
Gollys’ daughter, could not have been in the
same restroom or locker room as Student A,
who used boys’ facilities. Pet. 5; Pet. App. 182a,
194a. Moreover, she graduated from Dallas
High School before the Complaint was filed.
Pet. App. 182a. (Lindsay was originally a
plaintiff, but Petitioners consented to
dismissing her claims for lack of standing.) Pet.
App. at 85a. The Gollys’ son, A.G., was in
middle school at the time the Complaint was
filed; the earliest he could have entered Dallas
High School was September 2018, after Student
A had graduated. Id. (A.G. was also originally a
plaintiff, but is not a Petitioner before this
Court.) Pet. ii.

x

Parents Rights in Education is an organization
“comprised of educators, school board members,
parents and grandparents.” Id. at 180a.
Petitioners do not allege that any members
were parents of any students within the school
district, much less that they had boys who
attended Dallas High School when Student A
was there. Nor has Parents Rights in Education
alleged that the school district’s actions
impaired its ability to carry out its mission or
caused it to divert its resources.

x

Parents for Privacy is an organization that, at
the time of filing the Complaint, alleged it had
student and parent members affected by the
school district’s policies. Id. at 181a. The
10

Complaint did not allege anything about the
number, grade level, or sex of the student
members, or the children of the parent
members, except to state that its members
included the Golly family, already plaintiffs in
their own right. The Complaint did not allege
that any of the student members or any of the
children of the parent members ever
encountered a transgender student in a locker
room or restroom or that they were likely to do
so. Petitioners’ counsel admitted before the
district court that no Plaintiff had encountered
a transgender student in the restroom or locker
room. Nor did the Complaint allege that the
school
district’s actions
impaired
the
organization’s ability to carry out its mission or
drained its resources.2

The Petition also describes Nicole Lillie as a Petitioner, but she
consented to the dismissal of her claims before the district court,
Pet. App. 85a, and cannot properly petition this Court. She was
listed in the caption of the Complaint, but the Complaint
contained no allegations about her whatsoever.

2

11

REASONS FOR DENYING THE PETITION
I.

This Case Presents an Inappropriate
Vehicle, Both Because It Is at Most an
Abstract Dispute, and Because the Facts
Alleged in the Complaint Contradict those
in the Petition.

This dispute is entirely abstract, and does not
present the concrete case or controversy required by
Article III. Furthermore, the facts that Petitioners
describe in their Petition as necessary for their claims
are rebutted by their own Complaint. Both defects
render this Petition a wholly inappropriate vehicle for
resolution of any of the questions presented.
A.

This Case Presents an Abstract
Disagreement, Not a Concrete Case
or Controversy.

No student who used or could have used a
restroom or locker room at the same time as Student
A has ever been a party to this lawsuit; at this point,
no individual students remain in the case at all. This
dispute was abstract at its outset, and became even
more so when Student A, the only transgender
student identified at Dallas High School, graduated in
2018. His graduation rendered obsolete the Student
Safety Plan about which Petitioners complain. Mere
disagreement with a school district’s decision does not
suffice to create a genuine case or controversy absent
some more “concrete and particularized,” “actual or
imminent” injury. Lujan v. Defs. of Wildlife, 504 U.S.
555, 560 (1992). Justiciability may be raised at any
stage of a proceeding, as it goes “to the power of the
federal courts to entertain disputes.” Renne v. Geary,
501 U.S. 312, 316 (1991).
12

Here, no Petitioner or Petitioner’s child ever
encountered—or was even ever likely to encounter—
Student A in a restroom or locker room. That is
because Petitioners include no boys or parents of boys
who attended Dallas High School at the same time as
Student A. Their “injury” stems solely from abstract
disagreement with the school’s safety plan for another
student. As such, they do not have an “actual” or
“imminent” injury-in-fact that is fairly traceable to the
conduct of the defendants and redressable by the
court. Lujan, 504 U.S. at 560.
Furthermore, all of the claims in the Petition,
except the one concerning a substantive due process
right to parental autonomy, rest on the rights of
students. But none of the Petitioners are students.
Pet. ii. While one Petitioner is an organization alleged
to have student members, the Complaint offers no
specifics about those members, and thus there is no
basis to conclude that any of them are boys who
attended school with Student A, and thus could have
used a restroom or locker room with him.
At oral argument before the district court,
Petitioners conceded that none of the Plaintiffs had
ever encountered Student A, or any transgender
student, in a restroom or locker room, and that they
were instead seeking relief based on the risk that such
an encounter might occur in the future.3 At the time
As noted above, see supra, at note 1, Counsel conceded no
student represented here ever encountered Student A in a locker
room or restroom:

3

THE COURT: The harm that you're describing isn't
harm that has been realized as a result of somebody
encountering somebody. The harm that you're describing
is the risk that that might happen.

13

of this concession, Student A’s Safety Plan had been
in effect, and Student A had been using boys’
restrooms and locker rooms, for almost three years,
and his graduation was mere weeks away.
Thus, Petitioners admit that no Plaintiff used a
restroom or locker room with Student A even once in
the nearly three years that Student A’s Safety Plan
was in place. They do not even allege that any Plaintiff
had to use single-occupancy facilities to avoid sharing
a restroom or locker room with him. And no Plaintiff
alleged hearing of or receiving notice of any
transgender student other than Student A using
facilities consistent with their gender identity at
Dallas High School.4 Therefore, any purported injury
to any Petitioner’s child or member flowing from the
use of a restroom or locker room with a transgender
student was neither “actual” nor “imminent.” Bennett,
520 U.S. at 167.

MR. GREY: Correct, which we have alleged. And I believe
the allegations are sufficient to -THE COURT: So your response to my question is: It
doesn't matter that an encounter has not ever occurred
between any of the plaintiffs and a transgender student
in the facilities that you're most concerned about, which
are showers and bathrooms.
MR. GREY: I would say that that's -- that's correct. And
I believe it's going too far to say that there has to have
been some sort of an event already that may be traumatic
to somebody, whether it's one of the plaintiffs or someone
else, before there's any -- any ability to -- to respond to
this Student Safety Plan.
Mot. Hr’g Tr. 22:13–23:4.
4 The students in Student A’s gym class were notified before he
began using the boys’ locker room. Pet. App. 206a.

14

The parental autonomy claim is equally
abstract. The Gollys are parents of children within the
school district, but neither of their children were boys
who attended high school with Student A. Pet. App.
182a. As such, it is not possible that either of their
children could have used a restroom or locker room at
the same time that he did. Parents Rights in
Education did not allege that it had any members
affected by the school district’s actions. And Parents
for Privacy did not allege any of its parent members’
children were boys who attended high school at the
same time as Student A.
Nor does the Complaint establish any
likelihood of future encounters, as Student A has long
graduated, Student A’s Safety Plan is no longer
operative, and the Complaint identifies no other
transgender students in attendance at Dallas High
School. A suit is not ripe if it rests upon “contingent
future events that may not occur as anticipated, or
indeed may not occur at all.” Texas v. U.S., 523 U.S.
296, 300 (1998) (quoting Thomas v. Union Carbide
Agric. Prod. Co., 473 U.S. 568, 580–581 (1985)).
Because there is no reason to believe that any of the
Petitioners’ children or members ever used a restroom
or locker room with Student A, or face an imminent
risk of using a restroom or locker room with any
transgender student at this point, no claim for relief is
ripe.
If this suit was ever a live controversy, it is
surely moot now. A suit becomes moot “‘when the
issues presented are no longer “live” or the parties
lack a legally cognizable interest in the outcome.’”
Already, LLC v. Nike, Inc., 568 U.S. 85, 91 (2013)
(quoting Murphy v. Hunt, 455 U.S. 478, 481 (1982))
(per curiam)). Plaintiffs’ request for prospective
15

injunctive relief became moot when Student A
graduated. While Plaintiffs included a general claim
for damages in their Complaint, no damages claim on
behalf of any student remains in this case. Pet. App.
85a. And no parent who remains in this suit has a
child who used, or even could have used, a restroom or
locker room with Student A. Petitioners do not explain
what “damages” they could possibly pursue under
these circumstances.
Thus, this dispute, arising from a no-longeroperative safety plan for a student no longer at the
school, is entirely abstract, and does not present a case
or controversy sufficient to satisfy Article III.
Petitioners disagree with Dallas High School’s
decision as to Student A, but cannot point to any
imminent, ongoing, or past concrete injury that they
suffer.
Moreover, even if the Complaint’s vague
allegations somehow sufficed to present a current case
or controversy, the highly abstract character of the
claims makes this an especially poor vehicle for
addressing the issues in the Petition. Vague
allegations about the possibility of past encounters
that concededly never materialized, at a school no
known transgender student continues to attend,
where the Petition is brought not by students but by
parents and parents’ rights organizations who do not
identify any members who were harmed, hardly
provide the kind of defined dispute that might
warrant this Court’s review.

16

B.

The Facts Alleged in the Complaint
Contradict those Asserted in the
Petition.

Even if the Court were to conclude that this
case is justiciable, the Petition is predicated on facts
contradicted by Petitioners’ own Complaint.
Petitioners ask this Court to decide whether the school
district would have violated the Constitution or Title
IX if it “compel[led] children to . . . expose their bodies
to classmates of the opposite sex,” or if it forced
students or parents to “affirm that a child is the sex
with which he or she self-identifies.” Pet. i. According
to the allegations in the Complaint, however, no one
was required to do either. No student was ever
required to change clothes or to use the restroom in
the presence of any other student; all students were
given the option to use private single-occupancy
facilities or stalls. Pet. App. 209a. And the Complaint
contains no allegations whatsoever concerning anyone
having to affirm anyone’s sex. As such, the compulsion
that forms the central basis of the Petition is wholly
absent from the Complaint’s allegations, making this
case an inappropriate vehicle to consider the
questions Petitioners seek to raise.
Each of Petitioners’ claims rests on the premise
that non-transgender students had to change clothes
or use restroom stalls in the presence of a transgender
student who was assigned a different sex at birth than
they were:
x

They describe the substantive due process
parental autonomy question as “[w]hether
parents surrender their fundamental right to
direct the upbringing of their children by
enrolling them in public school so that a school
17

district can compel children to . . . expose their
bodies to classmates of the opposite sex.” Pet. i
(emphasis added).
x

They describe the substantive due process
privacy question as “[w]hether schoolchildren’s
rights to bodily privacy are violated when they
are compelled to undress and engage in
intimate bodily functions in the presence of
members of the opposite sex who self-identify
as something other than their sex . . . .” Id.
(emphasis added).

x

They assert, with regard to their free exercise
claim, that “the Plan as implemented by the
District compelled them to violate their sincere
religious beliefs that they must not undress in
the presence of a member of the opposite
biological sex and must not be in the presence
of the opposite biological sex while the opposite
biological sex is undressing.” Id. at 8 (emphasis
added).

x

In connection with their Title IX claim, they
object to “[t]he District’s forced interaction
between biological males and biological females
in privacy facilities.” Id. at 38 (emphasis
added).

But according to their own Complaint, no
student was ever compelled to change clothes or to use
the toilet in front of anyone else.
On the contrary, the Complaint makes clear
that students had the choice of changing either in the
common areas or in the private stalls within the locker
rooms. Pet. App. 212a. If they were not satisfied with
the privacy of the stalls, the school district permitted
any student to use its single-occupancy changing or
18

restroom facilities. Id. at 209a, 216a, 246a. While the
Complaint alleges that these facilities were inferior to
the main locker rooms, it does not contend that they
were inadequate to let students avoid any unwanted
exposure to others.5
With regard to restrooms, ordinary latching
toilet stalls were available for students to use. Id. at
207a. The Complaint alleged that students might
accidentally see someone through the gaps in the stall
doors while walking past. Id. But according to the
Complaint, any students concerned about that
possibility could have used single-occupancy facilities.
Id. at 209a, 216a, 246a.
Petitioners also seek review of whether it
violates students’ or parents’ rights to be compelled to
“affirm that a child is the sex with which he or she selfidentifies.” Pet. i. But the Complaint did not allege
that the school compelled anyone to affirm anyone’s
sex. In fact, the Complaint does not allege that nontransgender students had to say anything at all.
While the Complaint alleges that the principal told
students they could not circulate a petition to ban
Student A from the boys’ restrooms and locker room,
Petitioners neither asserted a free speech claim below
nor alleged that any school official instructed students

In some places, Petitioners go even further and seek review of
whether it would violate students’ rights to be “compelled to fully
undress and perform bodily functions in the presence of a student
of the opposite sex without objection.” Pet. 21 (emphasis added).
But the Complaint does not allege that the School District
required students to fully undress at all.

5

19

to say or do anything affirmative related to Student A,
sex generally, or Student A’s sex specifically.6
Therefore, the core of the constitutional and
Title IX violations asserted in the Petition—being
forced to be seen unclothed, or being forced to affirm
someone’s identity—is directly contradicted by
Petitioners’ own allegations. Because, according to
Petitioners’ own Complaint, students were free to
maintain their privacy and were not required to affirm
anything, this case makes an inappropriate vehicle to
consider whether it would have been lawful for the
school district to require otherwise.
II.

PETITIONERS HAVE IDENTIFIED NO
CIRCUIT SPLIT.

This case also does not require review because
Petitioners have identified no split among the courts
of appeals. The only two other courts of appeals to
address the question presented here—whether a
school district violates federal sex discrimination law
or the Constitution when it chooses to allow
transgender people to use restrooms or locker rooms
consistent with their gender identity—reached the
same conclusion as the court of appeals here. See
Boyertown, 897 F.3d at 521; Cruzan, 294 F.3d at 983–
84. In fact, every appellate judge to consider claims
akin to those advanced here has rejected them. Yet
Petitioners also now assert that “Student A, who self-identifies
as a male can use either the female’s or male’s privacy facilities.”
Pet. 39. But according to Student A’s Safety Plan, attached as an
Exhibit to the Complaint, Student A was allowed only to use
facilities with which he “identified,” and he identified as “male.”
Pet. App. 259a, 261a. According to the Complaint, he consistently
used facilities designated for boys once the safety plan was
implemented.

6

20

Petitioners do not even cite these cases. For the same
reason that the Court denied certiorari in Boyertown,
it should deny review here.
Claims like those presented here have reached
federal appellate review only twice before. Both times,
the court of appeals unanimously rejected the claims,
affirming a district court’s decision. In Boyertown, the
Third Circuit ruled that plaintiffs had not established
that “the mere presence of transgender students in
bathrooms and locker rooms constitutes sexual
harassment so severe, pervasive, or objectively
offensive… ‘that [the plaintiff] is effectively denied
equal access to an institution’s resources and
opportunities.’” Boyertown, 897 F.3d at 535 (quoting
DeJohn v. Temple University, 537 F.3d 301, 316 n.14
(3d Cir. 2008). It also held that no substantive due
process privacy violation had taken place, because the
school district did not “force any cisgender student to
disrobe in the presence of any student—cisgender or
transgender.” Id. at 531.
Almost two decades earlier, the Eighth Circuit
affirmed a district court ruling that a transgender
woman teacher using a women’s restroom at a public
school did not create a hostile work environment
where she had not “engaged in any inappropriate
conduct other than merely being present in the
women's faculty restroom.” Cruzan, 294 F.3d at 984.
The court also ruled that her presence in a women’s
restroom did not constitute religious discrimination
against a non-transgender woman who had religious
reasons for objecting to her presence. Id.
Petitioners concede, as they must, that there is
no circuit split on their substantive due process
parental autonomy, free exercise, and Title IX claims.
21

They attempt to manufacture a circuit split only with
respect to their substantive due process privacy claim,
suggesting that the courts are divided on whether
students are entitled to “protection from compelled
exposure of their unclothed bodies.” Pet. 18. But that
argument fails for two reasons: no such compulsion
occurred here, and no such circuit split exists. As the
court of appeals pointed out, the cases Petitioners cite
involved government officials themselves intruding on
individuals’ bodily privacy through strip searches,
hidden cameras, or both. Pet. App. 32a.7 The courts of
appeal agree that these sorts of actions can infringe on
privacy rights. Plaintiffs simply did not allege any
such conduct here.
Thus, far from there being any circuit split, the
only two cases that remotely resemble this one were
both also resolved unanimously, rejecting the novel
claims Petitioners assert.
III.

THE COURT OF APPEALS WAS CORRECT.

Finally, the court of appeals’ decision is correct.
The claims Petitioners assert are unsupported by
precedent, and they would lead to intrusive federal
judicial interference with local schools on the basis of
a virtually limitless range of parental and student
objections. The court of appeals applied established
legal standards appropriately, and even if it had not,
7 The facts in these cases could not be more different from the
facts alleged here. See, e.g., Doe v. Luzerne Cty., 660 F.3d 169 (3d
Cir. 2011) (male officers surreptitiously filming woman officer
while completely undressed); Poe v. Leonard, 282 F.3d 123 (2d
Cir. 2002) (same); Canedy v. Boardman, 16 F.3d 183 (7th Cir.
1994) (non-emergency cross-gender strip search); Brannum v.
Overton Cty. Sch. Bd., 516 F.3d 489 (6th Cir. 2008) (school
officials gratuitously filming and viewing footage of middle school
students changing in locker rooms).

22

that alone would not be a reason to grant certiorari.
See Sup. Ct. Rule 10.
Substantive
due
process
parental
autonomy. As parents, Petitioners assert that their
substantive due process rights were violated because
they were not permitted to veto the school district’s
decision about Student A using the boys’ public
restrooms and locker room at Dallas High School. But
simple disagreement—no matter how strongly held—
with a public school district’s action cannot suffice to
state a substantive due process claim. There is no
historical support for the notion that the Due Process
Clause lets parents challenge a school’s otherwise
lawful policy choices regarding restroom and locker
room use. Such a standard would be both
unprecedented and unworkable; as Petitioners offer
no limiting principle, it would give every parent
license to go to court to veto not only decisions about
restroom access, but any decision of a school district
with which they disagreed—simply because they
disagree.
The legal standard in this area has been well
settled for a century. Parents have a right to make
decisions about the care, custody, and control of their
children. See Meyer v. Nebraska, 262 U.S. 390 (1923);
Pierce v. Soc’y of Sisters, 268 U.S. 510 (1925). But that
right does not allow parents to dictate the myriad
policy decisions of public schools. See Meyer, 262 U.S.
at 402 (“The power of the state to compel attendance
at some school and to make reasonable regulations for
all schools . . . is not questioned. Nor has challenge
been made of the state's power to prescribe a
curriculum for institutions which it supports.”); Prince
v. Massachusetts, 321 U.S. 158, 167 (1944) (“[T]he
state has a wide range of power for limiting parental
23

freedom and authority in things affecting the child's
welfare.”).
In the absence of any support in substantive
due process jurisprudence, Petitioners invoke free
speech and free exercise cases. Pet. 11–13 (citing West
Virginia State Bd. of Educ. v. Barnette, 319 U.S. 624
(1943) and Tinker v. Des Moines Indep. Cmty. Sch.
Dist., 393 U.S. 503 (1969)). While it is of course true
that school districts may not infringe the free speech
or free exercise rights of students, those claims are
distinct from substantive due process parental
autonomy claims. Here, the Petitioners never raised a
free speech claim. And their free exercise claim,
discussed below, is meritless.
In a pluralistic society, school districts risk one
or more parents disagreeing with virtually any
decision they might make on any of dozens of issues.
As the court of appeals commented, “School districts
face the difficult task of navigating varying student
(and parent) beliefs and interests in order to foster a
safe and productive learning environment, free from
discrimination, that accommodates the needs of all
students.” Pet. App. 8a. School districts simply cannot
align their decisions with all views. Neither this Court
nor any court of appeals has ever ruled that they must.
Substantive
due
process
privacy.
Petitioners also assert a substantive due process claim
based on student privacy. As an initial matter, as
noted above, no students remain in this case, and none
of the parents or parents’ organizations asserts a
claim on behalf of a student whose privacy was or
could have been compromised. That is sufficient to
reject Petitioners’ claims. And certainly where, as
here, a school provides alternatives fully adequate to
24

preserve whatever privacy interests students may
have in this context, there is no basis for finding a
substantive due process privacy violation.
As noted above, the courts of appeals have
recognized that when the government compels
someone to expose their unclothed body to a
government
official,
it
can
infringe
on
constitutionally-protected privacy interests. See, e.g.,
Doe v. Luzerne Cty., 660 F.3d 169 (3d Cir. 2011); Poe
v. Leonard, 282 F.3d 123 (2d Cir. 2002); Sepulveda v.
Ramirez, 967 F.2d 1413, 1415 (9th Cir. 1992). While
these cases are most often resolved under the Fourth
Amendment, a claim not presented here, some have
been addressed as substantive due process cases. But
here, the court of appeals correctly held that “because
this case does not involve a privacy intrusion by
government officers or the public disclosure of photos
or video footage,” no constitutional violation had taken
place. Pet. App. 32a.
To the extent Petitioners seek recognition of a
new substantive due process right to be free from any
risk of encountering a transgender student in a school
restroom or locker room, such a right has no historical
or traditional basis, and is not “implicit in the concept
of ordered liberty.” Washington v. Glucksberg, 521
U.S. 702, 721 (1997). No court has ever recognized
such a right, and the court of appeals correctly held
that there is no basis for doing so here. Pet. App. 28a–
32a.
Free exercise. The court of appeals also
correctly ruled that Student A’s Safety Plan did not
violate the Free Exercise Clause. As an initial matter,
the only students who alleged that they had relevant
religious beliefs, Lindsay Golly and A.G., are not
25

Petitioners here, and in any event could not have used
a restroom or locker room with Student A. As noted
above, Lindsay, who went to school with Student A, is
a girl, and A.G., a boy, never attended school with
Student A. Id. at 182a. Even if, counter to fact, one of
the Golly children were a boy who attended Dallas
High School when Student A did, he would have been
allowed to use a single-occupancy restroom or
changing room. Id. at 209a, 246a. Thus, even under
the free exercise standard that preceded Smith,
Plaintiffs would have no plausible claim, because they
did not allege any burden—much less a substantial
burden—on their religious practice.
In any event, the school’s policy is neutral and
generally applicable as to religion. See Emp’t Div.,
Dep’t of Human Res. of Oregon v. Smith, 494 U.S. 872,
880 (1990). There are no allegations in the Complaint
that indicate otherwise. Under Smith, rational basis
review applies, and the court of appeals correctly ruled
that Student A’s Safety Plan easily satisfied that
review because it served the interests of “protecting
student safety and well-being, and eliminating
discrimination on the basis of sex and transgender
status.” Pet. App. 72a.
Petitioners assert for the first time in their
Petition that the school district exhibited hostility to
religion. Pet. 31, 34–35. But the allegations in the
Complaint allege no hint of hostility toward religion.
In fact, there are no allegations that school officials
were even aware of the religious basis of the Golly’s
objections to Student A’s Safety Plan.
Title IX. Finally, the court of appeals correctly
rejected Petitioners’ Title IX claim. Petitioners
asserted a “hostile environment” peer sexual
26

harassment claim, maintaining that the mere
presence of Student A in boys’ facilities created a
hostile environment. Pet. App. 243a–47a. Here, again,
as a threshold matter, no one was required to share a
restroom or locker room with Student A, given the
alternatives the school made available to all. Id. at
209a, 246a. And the Petition raises no question as to
the governing legal standard, but only as to its
application. Pet. 35–39.
In any event, the allegations here do not come
close to asserting a hostile environment claim. This
Court held in Davis ex rel. LaShonda D. v. Monroe Cty.
Bd. of Educ., 526 U.S. 629 (1999) that such a claim
requires a plaintiff to show that the school permitted
a student to engage in sex-based “misconduct” that
was “sufficiently severe” to deprive a student of equal
access “to the educational opportunities or benefits
provided by the school.” Id. at 649–50. Here, there was
no misconduct alleged at all. The court of appeals
correctly held, like the Third and Eighth Circuits
before it, that merely being transgender does not
transform the ordinary act of using restrooms and
locker rooms for their intended purpose into an act
“sufficiently severe or pervasive that a reasonable
person would agree that it is harassment.” Pet. App.
43a.
Petitioners now argue, for the first time, that
they have a distinct Title IX sex discrimination claim
because Student A was allowed to use the boys’
restrooms and locker room, but non-transgender girls
were not allowed to use the boys’ restrooms and locker
room. Pet. 39. As an initial matter, because the lower
courts had no opportunity to consider this argument,
this claim is not properly presented. But in any event,
it is without merit. It is of course true that boys,
27

whether transgender or not, had access to boys’
restrooms and locker rooms, while girls did not. That
is a sex-based policy, as it would be even if no
transgender student had ever attended Dallas High
School.
But Petitioners have never asserted that any
girl who attended Dallas High School, much less
anyone represented before this Court, ever wanted to
use a boys’ restroom or locker room, sought permission
to do so, or was injured in any way by not being
permitted to do so. See Bostock v. Clayton Cty.,
Georgia, 140 S. Ct. 1731, 1753 (2020) (“[T]he term
‘discriminate against’ refers to ‘distinctions or
differences in treatment that injure protected
individuals’”) (emphasis added) (quoting Burlington
N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 59 (2006)).
Nor did they seek relief that would provide access to
these facilities to girls. Pet. App. 254a–257a. In fact,
they emphatically reject any policy that does not
enforce sex separation in restrooms and locker rooms.
Pet. 38; Pet. App. 254a–55a. Their objection has
always been to Student A’s use of the boys’ facilities
because he is transgender, not to the exclusion of nontransgender girls from the boys’ facilities. Petitioners’
effort to transform their case at the petition for
certiorari stage is without basis.
Finally, contrary to Petitioners’ suggestion, this
case does not involve the “precise issue” Justice Alito
expressed concern about in his dissent in Bostock. Pet.
37. Justice Alito identified the outstanding question of
whether Title VII or Title IX requires school districts
to do what the school district did here, noting that
“[t]he Court provides no clue why a transgender
person’s claim to such bathroom or locker room access
might not succeed.” Id. at 36, quoting Bostock, 140 S.
28

Ct. at 1779 (Alito, J., dissenting). Indeed, transgender
plaintiffs making such claims have succeeded in other
cases, and petitions for certiorari may be forthcoming
in two of them. See Grimm, 972 F.3d 586; Adams, 968
F.3d 1286; Whitaker, 858 F.3d 1034.
But this case does not present that question. It
presents only the question of whether anything in
Title IX barred a school district from choosing to
permit a transgender boy to use the boys’ restrooms
and locker room on the same terms as others, while
offering private alternatives to all students.

29

CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
Erin B. Bernstein
Darin M. Sands
BRADLEY BERNSTEIN
SANDS LLP
PO Box 4120,
PMB 62056
Portland, OR 97208
Peter D. Hawkes
LANE POWELL PC
601 SW Second Avenue,
Suite 2100
Portland, OR 97204
Kelly Simon
ACLU FOUNDATION OF
OREGON
P.O. Box 40585
Portland, OR 97240

James D. Esseks
Counsel of Record
Gabriel Arkles
Rose A. Saxe
Louise Melling
Malita Picasso
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549−2627
jesseks@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Dated: October 23, 2020

30

